>
}

No.
IN THE
SUPREME COURT FOR THE UNITED STATES

Leonid Burlaka et al;
On behalf of Themselves and
all others similarly situated
v.
Contract Transport Services, LLC

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I
certify that the Petition for Writ of Certiorari was
prepared using Century Schoolbook 12 point type face
and contains 3,944 words excluding the parts of the
document that are exempted by Supreme Court Rule
33.1(d). The word count was made using the word count

r

function of the word processing system used to prepare
the document.
I declare under penalty of perjury that the
foregoing is correct.
Executed on the 19th day of November, 2020.

Respectfully submitted,
/s/Jill M. Hartley______
Jill M. Hartley
jh@previant.com
Yingtao Ho
yh@previant.com
THE PREVIANT LAW FIRM, S.C.
310 W. Wisconsin Ave. Suite
100MW
Milwaukee, Wl 53202
(414) 271-4500
(414) 271-6308 FAX
Attorneys for Plaintiffs-Appellants.

